<html>
<title> - CONTROL OF ANTI-FOULING SYSTEMS ON SHIPS</title>
<body><pre>[House Hearing, 111 Congress]
[From the U.S. Government Publishing Office]



 
                CONTROL OF ANTI-FOULING SYSTEMS ON SHIPS
=======================================================================

                                (111-40)

                                HEARING

                               BEFORE THE

                            SUBCOMMITTEE ON
                COAST GUARD AND MARITIME TRANSPORTATION

                                 OF THE

                              COMMITTEE ON
                   TRANSPORTATION AND INFRASTRUCTURE
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED ELEVENTH CONGRESS

                             FIRST SESSION
                               __________

                             June 10, 2009
                               __________


                       Printed for the use of the
             Committee on Transportation and Infrastructure



                        U.S. GOVERNMENT PRINTING OFFICE
50-568 PDF                    WASHINGTON: 2009
________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; 
(202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, Washington, DC 
20402-0001







             COMMITTEE ON TRANSPORTATION AND INFRASTRUCTURE

                 JAMES L. OBERSTAR, Minnesota, Chairman

NICK J. RAHALL, II, West Virginia,   JOHN L. MICA, Florida
Vice Chair                           DON YOUNG, Alaska
PETER A. DeFAZIO, Oregon             THOMAS E. PETRI, Wisconsin
JERRY F. COSTELLO, Illinois          HOWARD COBLE, North Carolina
ELEANOR HOLMES NORTON, District of   JOHN J. DUNCAN, Jr., Tennessee
Columbia                             VERNON J. EHLERS, Michigan
JERROLD NADLER, New York             FRANK A. LoBIONDO, New Jersey
CORRINE BROWN, Florida               JERRY MORAN, Kansas
BOB FILNER, California               GARY G. MILLER, California
EDDIE BERNICE JOHNSON, Texas         HENRY E. BROWN, Jr., South 
GENE TAYLOR, Mississippi             Carolina
ELIJAH E. CUMMINGS, Maryland         TIMOTHY V. JOHNSON, Illinois
ELLEN O. TAUSCHER, California        TODD RUSSELL PLATTS, Pennsylvania
LEONARD L. BOSWELL, Iowa             SAM GRAVES, Missouri
TIM HOLDEN, Pennsylvania             BILL SHUSTER, Pennsylvania
BRIAN BAIRD, Washington              JOHN BOOZMAN, Arkansas
RICK LARSEN, Washington              SHELLEY MOORE CAPITO, West 
MICHAEL E. CAPUANO, Massachusetts    Virginia
TIMOTHY H. BISHOP, New York          JIM GERLACH, Pennsylvania
MICHAEL H. MICHAUD, Maine            MARIO DIAZ-BALART, Florida
RUSS CARNAHAN, Missouri              CHARLES W. DENT, Pennsylvania
GRACE F. NAPOLITANO, California      CONNIE MACK, Florida
DANIEL LIPINSKI, Illinois            LYNN A WESTMORELAND, Georgia
MAZIE K. HIRONO, Hawaii              JEAN SCHMIDT, Ohio
JASON ALTMIRE, Pennsylvania          CANDICE S. MILLER, Michigan
TIMOTHY J. WALZ, Minnesota           MARY FALLIN, Oklahoma
HEATH SHULER, North Carolina         VERN BUCHANAN, Florida
MICHAEL A. ARCURI, New York          ROBERT E. LATTA, Ohio
HARRY E. MITCHELL, Arizona           BRETT GUTHRIE, Kentucky
CHRISTOPHER P. CARNEY, Pennsylvania  ANH ``JOSEPH'' CAO, Louisiana
JOHN J. HALL, New York               AARON SCHOCK, Illinois
STEVE KAGEN, Wisconsin               PETE OLSON, Texas
STEVE COHEN, Tennessee
LAURA A. RICHARDSON, California
ALBIO SIRES, New Jersey
DONNA F. EDWARDS, Maryland
SOLOMON P. ORTIZ, Texas
PHIL HARE, Illinois
JOHN A. BOCCIERI, Ohio
MARK H. SCHAUER, Michigan
BETSY MARKEY, Colorado
PARKER GRIFFITH, Alabama
MICHAEL E. McMAHON, New York
THOMAS S. P. PERRIELLO, Virginia
DINA TITUS, Nevada
HARRY TEAGUE, New Mexico

                                  (ii)



        SUBCOMMITTEE ON COAST GUARD AND MARITIME TRANSPORTATION

                 ELIJAH E. CUMMINGS, Maryland, Chairman

CORRINE BROWN, Florida               FRANK A. LoBIONDO, New Jersey
RICK LARSEN, Washington              DON YOUNG, Alaska
GENE TAYLOR, Mississippi             HOWARD COBLE, North Carolina
BRIAN BAIRD, Washington              VERNON J. EHLERS, Michigan
TIMOTHY H. BISHOP, New York          TODD RUSSELL PLATTS, Pennsylvania
STEVE KAGEN, Wisconsin               PETE OLSON, Texas
MICHAEL E. McMAHON, New York
LAURA A. RICHARDSON, California
JAMES L. OBERSTAR, Minnesota
  (Ex Officio)

                                 (iii)

                                CONTENTS

                                                                   Page

Summary of Subject Matter........................................    vi

                               TESTIMONY

Jones, James, Acting Assistant Administrator, Office of 
  Prevention, Pesticides, and Toxic Substances, Environmental 
  Protection Agency..............................................     4
Lantz, Jeffrey G., Director of Commercial Regulations and 
  Standards, U.S. Coast Guard....................................     4

               PREPARED STATEMENTS SUBMITTED BY WITNESSES

Jones, James.....................................................    15
Lantz, Jeffrey G.................................................    21

                       SUBMISSIONS FOR THE RECORD

Lantz, Jeffrey G., Director of Commercial Regulations and 
  Standards, U.S. Coast Guard, response to question from Rep. 
  Elijah Cummings, of Maryland...................................    11
[GRAPHIC] [TIFF OMITTED] T0568.001

[GRAPHIC] [TIFF OMITTED] T0568.002

[GRAPHIC] [TIFF OMITTED] T0568.003

[GRAPHIC] [TIFF OMITTED] T0568.004

[GRAPHIC] [TIFF OMITTED] T0568.005


 
                CONTROL OF ANTI-FOULING SYSTEMS ON SHIPS

                              ----------                              


                        Wednesday, June 10, 2009

                  House of Representatives,
          Subcommittee on Coast Guard and Maritime 
                                    Transportation,
            Committee on Transportation and Infrastructure,
                                                    Washington, DC.
    The Subcommittee met, pursuant to call, at 2:08 p.m., in 
Room 2167, Rayburn House Office Building, Hon. Elijah E. 
Cummings [Chairman of the Subcommittee], presiding.
    Mr. Cummings. This hearing is called to order.
    At the beginning of the 110th Congress, one of the charges 
to the Chairman of the Full Committee on Transportation and 
Infrastructure, Congressman Oberstar, said that each 
Subcommittee was to protect the environment from the impacts 
that modes of transportation imposed on it. In our Subcommittee 
we have worked diligently to keep that charge by taking 
specific steps to lessen the impact of commercial shipping on 
the marine environment as well as on air quality.
    Last year, for example, this Subcommittee developed and the 
Congress eventually passed the Maritime Pollution Act, H.R. 
802, which instituted the legal changes needed to bring the 
United States in compliance with the International Convention 
for the Prevention of Pollution from Ships, MARPOL Convention 
Annex VI. MARPOL Annex VI limits the emissions from ships of 
sulfur oxide and nitrogen oxide, which are ozone-depleting 
substances. H.R. 802 was enacted after the Annex VI Treaty was 
ratified by the Senate in April, 2006, and had come into force 
internationally in May of 2006.
    Today we convene to consider another international 
convention which has now come into force and to which the 
United States Senate has now given its consent, the 
International Convention on the Control of Harmful Antifouling 
Systems on Ships. The following is defined by the International 
Maritime Organization as the "unwanted growth of biological 
materials such as barnacles and algae on a surface immersed in 
water."
    If such organisms grow on the hull of a vessel, they can 
add significant weight to the vessel and slow its movement 
through the water, thus causing it to consume more fuel and to 
release more polluting emissions than it might otherwise do. 
Additionally, as biological materials accumulate on a vessel, 
the vessel becomes the vector by which these plants and animals 
are introduced into environments in which they are not native.
    The buildup of biological material on untreated surfaces 
can proceed at an astonishing rate. The IMO has written that if 
a vessel bottom is exposed to the water without any treatment, 
up to 300 pounds of material could gather on each square yard 
of the ship's hull over just a 6-month period. This could add 
up to 6,000 tons of weight on a deep-draft vessel.
    Antifouling systems are the systems used to prevent the 
buildup of biological materials on a ship's hull. In the 1960s 
and 1970s an antifouling system was developed that relied on a 
compound called tributyltin, known more commonly as TBT. This 
compound was initially known as the most effective way of 
preventing fouling, and later advances in the formulation of 
this system required that a new coating of antifouling paint be 
applied only once every 5 years.
    Unfortunately, TBT had not been fully studied before it was 
released into the marine environment and it has proven to be 
highly toxic to marine life, including crustaceans, fish, and 
even marine mammals.
    TBT has caused alterations in oyster shells and has caused 
female dogwhelts, a type of snail, to begin to developing male 
sexual characteristics. There is even some evidence that TBT is 
boracic, meaning that larger animals can ingest it as they 
consume smaller animals on the food chain. Thus, the IMO 
reports that traces of TBT contamination have now been found 
even in whales.
    In October of 2001, after nearly a decade of work, the IMO 
adopted the International Convention on the Control of Harmful 
Antifouling Systems on Ships, which now bans the use of TBT 
among Convention signatories. This Convention also establishes 
a system under which new antifouling coatings can be tested to 
assess their effect on the marine environment. Coatings can be 
added to the list of prohibited antifouling systems under the 
Convention if they are found to be harmful.
    The Convention on the Control of Harmful Antifouling 
Systems on Ships was drafted to enter into force 1 year after 
25 States, representing 25 percent of the merchant shipping 
tonnage in use around the world, adopted a Convention. The 
Convention came into force internationally on September 17, 
2008. The United States Senate gave its consent to the 
Convention just a few days later in September of 2008.
    I note that currently under the U.S. law, TBT, like all 
organotins, is regulated under the Antifouling Paint Control 
Act of 1998. Under this Act, the sale and most applications of 
TBT antifouling coatings in the United States are prohibited. 
However, the United States does not yet have the ability to 
prohibit vessels from other States using TBT-based antifouling 
coatings from entering our waters.
    At this time, the United States needs to adopt the laws 
that will bring our Nation into full compliance with the 
Convention, thus completing our ratification of the Convention 
and finally banning the entry into U.S. waters of ships with 
TBT coatings. Today's hearing will help inform the development 
of such legislation.
    I look forward to the testimony of today's witnesses and 
recognize our distinguished Ranking Member, Congressman 
LoBiondo.
    Mr. LoBiondo. Thank you, Mr. Chairman.
    Last September, the Senate gave its advice and consent to 
the International Convention on the Control of Harmful 
Antifouling Systems on Ships in 2001. The Bush administration 
submitted draft legislation to implement the requirements of 
the Convention for the purposes of U.S. law, and it is my 
understanding that the current administration also supports 
legislation to implement the Convention.
    The International Convention prohibits vessels of any size 
from being treated with certain antifouling paints that have a 
harmful impact on the marine environment and human health. The 
largest class of these toxic compounds, organotins and 
tributyltins, has largely been prohibited from maritime use in 
the United States.
    Under the Convention, all ships greater than 400 gross tons 
that engage in international voyages would be required to be 
inspected for the presence of prohibited antifouling paints and 
systems. Additionally, smaller vessels may be required to carry 
some certification that they are outfitted only with approved 
antifouling measures.
    While I support the removal of these toxic products from 
our waters, I think that we need to be mindful of the impacts 
that the Convention and any implementing legislation might have 
on the hundreds of thousands of recreational and commercial 
boat owners nationwide.
    Lastly, I would like to hear more about whether the 
Convention will prohibit or restrict the use of other compounds 
currently utilized for antifouling purposes and how any new 
additions to the Convention would come into effect under U.S. 
law.
    I want to commend the Coast Guard and the EPA for their 
work over the last 10 years to address this issue and for their 
stewardship of the marine environment. I look forward to 
working with you, Mr. Chairman, and both agencies to draft 
legislation to this effect in the coming months.
    Mr. Cummings. Thank you very much.
    Mr. Ehlers.
    Mr. Ehlers. Thank you, Mr. Chairman. Thank you for having 
this hearing. As one of the chief defenders of the Great Lakes, 
let me say I am very, very concerned about the use of 
antifouling paints, particularly tributyltin, but also others 
that could contaminate the Great Lakes or any other bodies of 
waters in the United States. So I appreciate you holding the 
hearing, giving us an opportunity to hear testimony and try to 
make certain that we preserve and protect the waters of the 
United States.
    Thank you. I yield back.
    Mr. Cummings. Thank you very much.
    We will now welcome our panelists. Mr. Jeffrey G. Lantz is 
the Director of Commercial Regulations and Standards with the 
United States Coast Guard. Welcome, Mr. Lantz. Mr. James Jones 
is the Acting Assistant Administrator of the Office of 
Prevention, Pesticides, and Toxic Substances with the 
Environmental Protection Agency.

     TESTIMONY OF JEFFREY G. LANTZ, DIRECTOR OF COMMERCIAL 
 REGULATIONS AND STANDARDS, U.S. COAST GUARD; AND JAMES JONES, 
     ACTING ASSISTANT ADMINISTRATOR, OFFICE OF PREVENTION, 
  PESTICIDES, AND TOXIC SUBSTANCES, ENVIRONMENTAL PROTECTION 
                             AGENCY

    Mr. Cummings. Gentlemen, we will now hear from you, 
starting with Mr. Lantz.
    Mr. Lantz. Good afternoon, Mr. Chairman and distinguished 
Members of the Subcommittee. It is a pleasure to be here. And I 
look forward to discussing the Coast Guard's role in preventing 
environmental damage that can result from the use of harmful 
antifouling systems and our willingness to work with Congress 
should legislation for the International Convention on the 
Control of Harmful Antifouling Systems be developed.
    Mr. Chairman, I ask that my written testimony be included 
in the record.
    Mr. Cummings. Without objection, so ordered.
    Mr. Lantz. Antifouling coatings and systems are designed to 
minimize the amount of marine growth which accumulates on a 
ship's hull during normal operation. Unfortunately, some of the 
antifouling coatings have proven extremely harmful to the 
marine environment and may pose risk to human health.
    Organotin compounds such as tributyltin, or TBT, are 
particularly troublesome. They can remain in the sediments for 
several years. They are highly toxic to marine organisms, and 
bioaccumulate in fish, mammals, and birds as TBT is absorbed 
through the food chain. There has also been some public concern 
over TBT's potential harmful effects on human health.
    In the 1980s, concern over these health hazards motivated 
many countries, including the United States, to enact 
legislation restricting the use of organotin antifouling 
systems on smaller vessels. In 1988, the Organotin Antifouling 
Paint Control Act was passed by Congress. Later, the 
International Maritime Community recognized the need for 
further action to control and ultimately eliminate the use of 
organotin compounds on ships.
    Under the International Maritime Organization, the 
International Convention on the Control of Harmful Antifouling 
Systems, commonly known as the Antifouling Convention, was 
adopted in October, 2001, and entered into force on September 
17, 2008.
    The Convention prohibits the new application of organotin 
antifouling systems and requires existing systems to be removed 
or overcoated to prevent leaching. It contains surveys, 
certification, and inspection mechanisms to ensure 
international compliance, and also provides a mechanism for the 
inclusion of additional antifouling systems that are determined 
to pose too great a threat to the marine environment.
    The Convention has widespread support among multiple 
sectors of the maritime community, including ship owners and 
operators and marine paint manufacturers, as it provides a 
single regulatory international program as well as a market for 
non-organotin-based hull coatings.
    The United States shipyards also support the Convention, as 
they must currently comply with a ban on organotin coating for 
vessels less than 25 meters in length and must meet strict 
leaching standards unique to the United States.
    In support of the Convention, the United States Senate gave 
advice and consent to the President on September 26, 2008, for 
ratification of the Antifouling Convention. However, this 
Treaty is not self-executing. If the United States completes 
ratification and becomes a party, implementing legislation will 
be required to give it effect.
    Implementing legislation on the Antifouling Convention will 
provide a number of positive aspects for the United States. 
First, it would deliver an even higher standard of 
environmental protection by building on the success with the 
Organotin Antifouling Paint Control Act of 1988, as it would 
expand the application of existing organotin prohibitions to 
all vessels, regardless of size.
    It would further protect U.S. ports and other waters 
against organotin deposition from all foreign-flagged ships. 
Through the Coast Guard's robust Port State Control program, we 
would significantly contribute to the international effort to 
prevent environmental damage from harmful antifouling systems 
and it would enable U.S. engagement in the international effort 
to identify future antifouling systems that should similarly be 
prohibited or controlled.
    In conclusion, deposit of an instrument of ratification at 
IMO would provide concrete evidence of the United States' 
continued commitment to protect the environmental health of our 
waters and the waters of those beyond our borders from the 
effects of harmful antifouling systems.
    Thank you for the opportunity to testify before you today 
and the opportunity to provide you with the Coast Guard's view 
in support of the Antifouling Convention. The Coast Guard 
appreciates the work of our partners in the Environmental 
Protection Agency and we look forward to further working with 
them on this important issue.
    Thank you again. I would be happy to answer any questions 
you may have.
    Mr. Cummings. Thank you very much.
    Mr. Cummings. Mr. Jones.
    Mr. Jones. Good afternoon, Mr. Chairman, Ranking Member 
LoBiondo, and Members of the Subcommittee. Thank you for the 
opportunity to testify before the Subcommittee on legislation 
to control harmful antifouling systems on ships. I am pleased 
to be here with my colleague Jeff Lantz from the U.S. Coast 
Guard.
    Mr. Chairman, I ask that my written testimony be introduced 
into the record.
    Mr. Cummings. So ordered.
    Mr. Jones. Thank you. The Agency supports the passage of 
legislation to implement the Antifouling Treaty as a means of 
protecting domestic waters, safeguarding the global 
environment, and promoting the development of safer 
technologies for controlling fouling on ship hulls.
    The treaty relies on rigorous scientific review as the 
basis of determining when controls are needed to limit the 
negative effects and impacts of antifouling systems. 
Implementation of the treaty will uphold the standing of the 
United States as an environmental leader. We are eager to 
assist your Subcommittee and Congress in implementing the 
protections afforded by the treaty through legislation.
    Let me provide some background. Organotin-based antifouling 
systems, mainly those containing in tributyltin, or TBT, are 
extremely effective and have long service lives, but they are 
extremely hazardous to aquatic organisms, including 
economically important species like oysters.
    Research has revealed that tributyltin is a potent 
endocrine disrupter and immunotoxin responsible for 
reproductive anomalies and other adverse effects in marine 
animals. Additionally, tributyltin from hull coatings would 
persist for many years in aquatic sediment.
    As the science on tributyltin has evolved, the Agency and 
Congress have taken steps to control the risks. The first step 
included prohibiting the use on smaller vessels and limiting 
the release rate of tributyltin from paint; the second step 
included regulating tributyltin paint waste in shipyards and 
analyzing monitoring data to see if these early controls reduce 
the risk. The science indicated that tributyltin levels in near 
coastal waters were dropping, but not enough to protect marine 
life.
    With this science in hand, the EPA became a full partner in 
negotiating the international agreement and worked with the 
tributyltin manufacturers on a phaseout. In 2005, the Agency 
canceled the last remaining registration for tributyltin 
antifouling paint and set December 31, 2005 as the last date 
such products could legally be sold in this country, except as 
allowed under existing stocks provisions. Canceling the 
registration effectively prohibits the use in the United 
States.
    The end result is that vessels that are painted with 
antifouling paints in the U.S. are no longer significant 
contributors to environmental loading with tributyltin. 
Unfortunately, ships that are maintained in places where 
tributyltin is still in use enter U.S. ports and leach 
tributlytin into our waters. Through the international 
agreement, vessels painted with tributlytin are identified and 
can be excluded from ports of countries that are parties.
    The treaty provides a mechanism for us to protect our 
domestic waters from foreign tributyltin and to influence the 
use of tributyltin by joining in united front with parties of 
the treaty. New statutory authorities, especially in 
enforcement of the tributyltin ban, are needed to supplement 
our domestic controls of tributyltin by keeping tributyltin-
painted vessels from other countries out of U.S. waters.
    We expect other benefits resulting from the implementing of 
the treaty. For example, once we become a party we will be able 
to participate fully in the scientific evaluation of proposed 
controls on other antifouling systems that may be viewed as 
problematic in the future. In addition, we expect that because 
of increased pressure on tributyltin-based systems, the current 
movement toward developing safer alternatives will expand.
    The scientific standards for evaluating the risks 
associated with antifouling systems as laid out by the treaty 
provide a roadmap for the paint and shipping industry to 
develop and adopt safer substitutes. Several safe and effective 
substitutes are already available.
    In summary, the controls and process to be implemented 
through the Antifouling Treaty are clearly beneficial to the 
environment and national interests. There is much to be gained 
in implementing the global Antifouling Treaty at this time, and 
little controversy exists regarding the impacts.
    Mr. Chairman and other Members, on behalf of EPA we are 
grateful for your work and the work of your staff in holding 
this hearing. Thank you for your leadership concerning this 
issue. We look forward to working with you.
    I will be happy to answer any questions you may have.
    Mr. Cummings. Thank you very much.
    Mr. Cummings. Mr. Jones, you said in your testimony that 
the production and use of TBT in some parts of the world 
continues to pose a problem that can be addressed only through 
a coordinated global effort; is that right?
    Mr. Jones. That is correct, Mr. Chairman.
    Mr. Cummings. How common is TBT on ships today? And given 
that the international Convention has now come into force, I 
mean how do you see us resolving this in the most effective and 
efficient manner?
    Mr. Jones. If there is legislation allowing the United 
States to exclude ships with TBT on their hulls from U.S. 
waters, regardless of where they were painted with TBT, we will 
be able to effectively protect our marine environment from TBT.
    Mr. Cummings. How common is it to find TBT on ships today?
    Mr. Jones. My understanding is that there are a number of 
Asian countries that still allow TBT to be used in shipping for 
antifouling purposes.
    Mr. Cummings. You also stated in your testimony that under 
the treaty, the U.S. and foreign-flagged vessels would be 
subject to the organotin prohibition, with the exception of 
ships used for government and noncommercial service. Is the TBT 
used on U.S. Government ships today?
    Mr. Jones. I would defer to my colleague from the Coast 
Guard. My understanding is that there is no use of organotin 
hull coatings on government-owned vessels.
    Mr. Cummings. Mr. Lantz.
    Mr. Lantz. Thank you, Mr. Chairman. To our knowledge, the 
Navy does not use TBT, and hasn't for over a decade. The same 
with the Coast Guard. I don't believe that TBT is used on any 
U.S. Government vessels. It hasn't been allowed. If it was on 
some existing ships, it would have been--should have been 
coated so that there wouldn't be any leaching into the water.
    Mr. Cummings. Can either of you, or both of you, comment on 
whether TBT began to be used both in the United States and in 
other countries before its harmful effects on marine 
environment were fully understood, or whether it was introduced 
even though concerns about its safety existed at the time it 
was introduced?
    Mr. Jones. Mr. Chairman, it was introduced well before we 
began to understand its effects on the environment.
    Mr. Cummings. So you think that if we had known those 
effects, it might not have been used as much as it has been 
used. Is that right?
    Mr. Jones. Certainly, if it were--if a manufacturer, for 
example, brought TBT to the Environmental Protection Agency 
today to license it for this use, they would not likely obtain 
a license, which is what they would need to use TBT on ships.
    Mr. Cummings. I note that you also stated that the review 
process for antifouling systems will consider impacts to the 
shipping industry and to society of potential replacement 
systems. Just as we need to ensure that antifouling systems are 
safe for the environment, we must also ensure that they are 
effective in preventing the fouling.
    Will new systems be assessed by the IMO to ensure that they 
meet performance standards?
    Mr. Lantz. Mr. Chairman, yes. The new systems will be 
analyzed by the IMO and looked at. As for the exact criteria, 
there are a number of criteria listed in the Convention that 
they use. I don't know those all off the top of my head, but I 
would provide that as an answer in the record to follow up, if 
that would be acceptable.
    Mr. Cummings. I would appreciate that.
    Did you have a comment on that, Mr. Jones?
    Mr. Jones. With respect to the IMO, new systems are brought 
before the U.S. EPA for pesticide licensing, as these are 
treated as pesticides in the United States, and we have 
licensed a number of chemicals that are relatively new for 
antifouling purposes in the last 10 years.
    Mr. Cummings. It has been stated in some industry magazines 
that copper will reemerge as the antifouling system of choice. 
Have the full effects of copper on the marine environment been 
evaluated and, if so, are there any concerns about the use of 
products based on copper?
    Mr. Jones. Mr. Chairman, the Environmental Protection 
Agency has authorized the use of a number of copper compounds 
as antifouling pesticides, and we do feel like we have a 
significant understanding of the environmental effects of 
copper.
    Copper does have effects on aquatic environments, but they 
are far less profound and pronounced than the effects observed 
from TBT. As you had mentioned in an earlier statement, our job 
is to balance the benefits and risks provided by a compound 
such as copper. We have found that the benefits of copper 
compounds for antifouling haveoutweighed the risks.
    Mr. Cummings. Mr. LoBiondo.
    Mr. LoBiondo. Thank you, Mr. Chairman.
    Gentlemen, thank you for being here. Can you discuss what 
you think the impacts will be for becoming a party to the 
Convention? We have a couple different categories I am 
interested in. Whether it is recreational boaters, the average 
fishing vessel owner, or the average commercial boat owner in 
the U.S., what effects would this have on them? Any speculation 
about that?
    Mr. Lantz. Thank you, Mr. LoBiondo. Sir, the effect really 
should not have any effect by ratifying this Convention. In the 
U.S. the use of organotin is already essentially prohibited for 
use by these vessels. Therefore, us ratifying the Convention 
will not increase the burden on those two vessel types that you 
cited, the rec boats and the fishing vessels.
    This Convention, what it does for the U.S. is it gets 
larger U.S.-flagged vessels that perhaps go overseas and get 
this put on their bottom, or foreign-flagged ships who are not 
party to the Convention who come to our waters. So that is the 
main benefit that this Convention provides.
    But as far as additional burden, I don't see an additional 
burden to the vessel groups that you cited.
    Thank you.
    Mr. LoBiondo. These larger type U.S.-flagged vessels that 
might be having this treatment over there-- can you give us a 
guesstimate of how long you would think it would take the Coast 
Guard and the EPA to conduct initial surveys and certify that 
all applicable ships are following the legislation?
    Mr. Lantz. Thank you. If we ratified the Convention we 
would be obligated to survey the vessels to verify that they 
don't have the organotin on them. We would have to certificate 
them because they would need this for traveling 
internationally. So I would envision that as soon as we 
ratified the Convention, became a party, the first inspection 
we would conduct on all U.S.-flagged vessels would verify 
whether or not organotin.
    Mr. LoBiondo. No guess as to how long that would take, 
though.
    Mr. Lantz. The inspection cycle--I don't want to really 
guess on that. I can provide a more concrete answer for the 
record on that as we work out the implementing details.
    Mr. LoBiondo. What would they do in the meantime, before 
they are inspected, if this is implemented? Would it impact the 
abilities of U.S.-flagged vessels to engage in international 
voyages to countries that are parties to the Convention if they 
are not certified?
    Mr. Lantz. No, sir. Currently, U.S.-flagged vessels that do 
trade to countries that are party are already receiving a 
certificate of voluntary compliance with the Convention. This 
is issued to them by the four classification societies that we 
have recognized. So they are already complying with the 
Convention.
    Mr. LoBiondo. Thank you, Mr. Chairman.
    Mr. Cummings. Mr. Taylor.
    Mr. Taylor. Mr. Lantz, I don't want to put words in your 
mouth, but I think you said that the U.S. fleet is more or less 
fully in compliance. Something to that extent. So who isn't in 
compliance now? Who would be affected by this as far as either 
a government agency or U.S.-flagged carrier?
    Mr. Lantz. Sir, I don't have an exact answer on who would 
be affected. To our knowledge, I don't know of any in the U.S. 
fleet that would be. There may be some out there that are using 
it that I am not aware.
    Mr. Taylor. Let's go back to the 25-meter rule. I have got 
to assume there is a significant number of U.S.-flagged vessels 
that are over 25 meters in length. Are those vessels at the 
moment excluded and would be included later on as far as 
compliance, or are they in compliance now?
    Mr. Lantz. Under the terms of the Convention, they would be 
swept up under the Convention.
    Mr. Taylor. Tell me about right now. Who does this affect 
as far as U.S.-flagged vessels? The rules were changed for 
whom?
    Mr. Lantz. For the larger vessels, those over 25 meters.
    Mr. Taylor. Over 25 meters.
    Mr. Lantz. Yes.
    Mr. Taylor. I think Mr. Jones had made the statement that 
there are safe and effective substitutes out there already, or 
already available. What are they? Are they as effective?
    I mean, number one, if they are not as effective you, are 
going to see your fuel costs soar as you are dragging barnacles 
and other things through the sea. The second thing is you are 
going to be hauling your vessel more often. There is a cost 
associated with that, the sand-blasting, et cetera. So how 
certain are you of that statement?
    Mr. Jones. Congressman Taylor, we are fairly certain of the 
statement as thanks to the fact that TBT has been phased out 
over the last, really, 10 years. The ingredients that are 
currently registered, approved for this antifouling use include 
zinc pyrithione; as I mentioned, a number of copper compounds. 
There is a compound IrgArol and a compound by the name of SEA-
NINE.
    Mr. Taylor. Does the EPA limit the percentage of copper 
that can go into a paint?
    Mr. Jones. In our licensing decisions around any chemical, 
we evaluate and approve them in the context of the percent of 
the ingredient in it.
    Mr. Taylor. What is the maximum copper content available 
now under the law?
    Mr. Jones. I would need to get back to you.
    [The information follows:]
    [GRAPHIC] [TIFF OMITTED] T0568.006
    
    Mr. Taylor. Because they are very real life questions, 
where I have actually had boatyards complain to me that people 
happen to haul more often because you have significantly 
limited the amount of copper that can go. In fact, one brand I 
know of, Interlux Coppertox, was actually taken off the market 
because I am told it had too high a percentage of copper in it. 
This isn't a nebulous question.
    Mr. Jones. It is a factual question. We can go back and 
look in our records to find what the percent allowed in active 
ingredients of approved products is.
    Mr. Taylor. I guess my question is: What are the unintended 
consequences of this? What problems do we create by trying to 
solve the problem you have outlined? Has anyone bothered to ask 
that question?
    Mr. Jones. As I mentioned, because we have a fair amount of 
experience, because this didn't happen overnight, it has 
actually been phased out for a while; we have also been 
monitoring the degree to which vessel owners have struggled 
with the transition. And thus far the transition has gone quite 
smoothly. That doesn't mean there won't be some issues by some 
individuals along the way. But in general, the transition away 
from TBT compounds has been pretty smooth.
    Mr. Taylor. The next question. Mr. Lantz, this is just a 
practical question. We have had ongoing problems with the Coast 
Guard ignoring what I consider to be rebuilds overseas of Jones 
Act vessels, even when we show them the photographs. My boaters 
back home were regularly complaining that the navigation lights 
weren't changed when they burn out. I remember when the Coast 
Guard actually used to rescue people for free, as opposed to 
now you have got to call a commercial towing service.
    Given the fact that the Coast Guard certainly appears to me 
to be stretched well beyond its boundaries right now with just 
existing missions, are you telling me that the Coast Guard now 
is going to be responsible for taking a bottom paint sample of 
every vessel that comes from overseas and they would determine, 
I guess at that point, whether or not the vessel can enter our 
waters?
    What is the practical--how do you foresee this happening, 
because that is the way I visualize it, is that they would 
actually take a scraping off the bottom paint and run a test on 
it.
    Mr. Lantz. Congressman, normally we would look for 
certification by the flag state of the ship. If the certificate 
is there which indicates that they have compliance with the 
Convention, we would usually accept that.
    Mr. Taylor. Sort of like the guy telling us he really 
didn't get his vessel rebuilt overseas. Right? That really does 
fail the commonsense test, sir.
    Mr. Lantz. If we have evidence that the certificate isn't 
valid, then of course we would investigate further, and if we 
had to take a sample, we would take a sample.
    Mr. Taylor. So you are basically counting on someone to 
tell you, who has no commercial incentive to tell you, he has 
got every commercial incentive to use this stuff because it is 
going to cut down on his maintenance, get better performance, 
and haul his boat less often. If he sends you a piece of paper 
saying he is compliant, you are going to trust him.
    Mr. Lantz. No, sir. These ships, when they show up on our 
shores, have a certificate issued by the government of the 
flagged state, the same as we would issue to the ships of our 
flag. It is very similar to virtually all the international 
conventions.
    Mr. Taylor. Of course, another government would never try 
to mislead the United States.
    Mr. Lantz. Maybe. I don't know, sir.
    Mr. Taylor. So the North Koreans--think about this. Again, 
what you are trying to do is well intended. All I see is one 
more time where we are putting rules on our vessels, raising 
the cost of doing business once again on an American vessel, 
making it that much easier for a foreign competitor to flaunt 
the rules, get an economic advantage over us, and no one is 
really going to enforce it because if they hold up a piece of 
paper from Panama or the British Virgin Islands or whoever that 
says they are in compliance, nobody is going to check to see if 
they really are. Is that correct?
    Mr. Lantz. Usually we do accept it on its face value unless 
we have evidence that there is something wrong. Then we would 
investigate further. We do this the same as we do virtually all 
of our ports.
    Mr. Taylor. Sort of like when I handed the photographs of 
the ship being rebuilt in China as opposed to repaired in 
China. And there is a still a Jones Act vessel and no one from 
the Coast Guard ever bothered to look into it. Sort of like 
that instance?
    Mr. Lantz. Unfortunately, I don't know exactly about the 
situation you are talking.
    Mr. Taylor. Thank you, Mr. Chairman.
    Mr. Cummings. Now, you wrote in your testimony about the 
harmful effects of TBT on marine organisms. Many sources have 
noted the chemical effects on oysters and digwhelk snails. How 
long does it take an organism affected by TBT to recover.
    Mr. Lantz?
    Mr. Lantz. Mr. Chairman, if I could defer to the EPA on 
that.
    Mr. Jones. Thank you, Mr. Chairman. I can't give you a 
specific answer to that. I can say that the TBT tends to be 
rather persistent in the environment. And so it does take a 
while for the exposure of the chemical, even after we have 
withdrawn it from the environment, for that exposure to 
actually cease.
    Mr. Cummings. Can the United States opt out of the IMO 
regulations regarding antifouling systems? Can we opt out of 
it?
    Mr. Lantz. Mr. Chairman, once we have signed onto the 
Convention, no, we cannot opt out of any particular regulation. 
We would get the opportunity, if the Convention were amended, 
we would then have the opportunity whether or not to accept 
that amendment. Once they are in place and we have accepted 
them, there is no opt-out unless we make the decision to opt 
out of the Convention completely.
    Mr. Cummings. What would be the cost of noncompliance?
    Mr. Lantz. Well, if we didn't comply after we had ratified 
it, certified our ships, they would be held up when they are 
trading internationally by those other parties. They would be 
subject to ports they control by the other parties. So it would 
be detrimental to their commerce.
    Mr. Cummings. How many states representing what percentage 
of shipping tonnage are now parties to the Convention under the 
control of harmful antifouling systems?
    Mr. Lantz. Mr. Chairman, currently there are 39 countries 
party to the Convention, representing just about 67 percent of 
the world's international shipping.
    Mr. Cummings. Very well.
    Ms. Richardson.
    Mr. Richardson. I have nothing.
    Mr. Cummings. Thank you very much. This hearing is now 
concluded. Thank you.
    [Whereupon, at 2:44 p.m., the Subcommittee was adjourned.]
    [GRAPHIC] [TIFF OMITTED] T0568.011
    
    [GRAPHIC] [TIFF OMITTED] T0568.012
    
    [GRAPHIC] [TIFF OMITTED] T0568.013
    
    [GRAPHIC] [TIFF OMITTED] T0568.014
    
    [GRAPHIC] [TIFF OMITTED] T0568.015
    
    [GRAPHIC] [TIFF OMITTED] T0568.016
    
    [GRAPHIC] [TIFF OMITTED] T0568.007
    
    [GRAPHIC] [TIFF OMITTED] T0568.008
    
    [GRAPHIC] [TIFF OMITTED] T0568.009
    
    [GRAPHIC] [TIFF OMITTED] T0568.010
    
                                    

</pre></body></html>
